No.
In the
Supreme Court of the United States
________
JACOB RAY OWENS,

Petitioner,

v.
UNITED STATES OF AMERICA,
________

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
________
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
________

Mark G. Parenti

Counsel of Record for Petitioner
Parenti Law PLLC
P.O. Box 19152
10497 Town & Country Way
Suite 700
Houston, Texas 77224
mark@parentilaw.com
Tel: (281) 224-8589

Petitioner Jacob Ray Owens respectfully moves under Rule 39.1,
Supreme Court Rules, and Title 18, United States Code section 3006A(d)(7),
for leave to proceed in forma pauperis, and to file the attached Petition for a
Writ of Certiorari to the United States Court of Appeals for the Fifth Circuit
without prepayment of fees. The Petitioner was represented by appointed
counsel under the Criminal Justice Act of 1964, as amended, in the court of
appeals.

Leave to proceed in forma pauperis on appeal was sought and

granted in the district court. No affidavit is attached, inasmuch as the court
below appointed counsel for petitioner under the Criminal Justice Act of
1964.
Respectfully submitted.

s/ Mark G. Parenti
Mark G. Parenti
Parenti Law PLLC
P.O. Box 19152
7500 San Felipe, Suite 600
Houston, Texas 77224
mark@parentilaw.com
Tel: (281) 224-8589

Counsel of Record for Petitioner
DATED: January 7, 2021

